                Department of Veterans Affairs
                Office of Inspector General


                  Office of Healthcare Inspections

Report No. 14-02063-231




  Combined Assessment Program

          Review of the

 New Mexico VA Health Care System

     Albuquerque, New Mexico





July 31, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                             CAP Review of the New Mexico VA Health Care System, Albuquerque, NM



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 EHR            electronic health record
                 EOC            environment of care
                 facility       New Mexico VA Health Care System
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MH             mental health
                 MRI            magnetic resonance imaging
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PACU           post-anesthesia care unit
                 PRC            Peer Review Committee
                 QM             quality management
                 SDS            same day surgery
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                     CAP Review of the New Mexico VA Health Care System, Albuquerque, NM



                                            Table of Contents

                                                                                                                           Page

Executive Summary ...................................................................................................            i


Objective and Scope ..................................................................................................           1

  Objective .................................................................................................................    1

  Scope......................................................................................................................    1


Reported Accomplishments......................................................................................                   2


Results and Recommendations ................................................................................ 3

  QM .......................................................................................................................... 3

  EOC ........................................................................................................................ 6

  Medication Management......................................................................................... 8

  Coordination of Care............................................................................................... 9

  Acute Ischemic Stroke Care ................................................................................... 10

  CLC Resident Independence and Dignity ............................................................... 12

  MRI Safety .............................................................................................................. 13


Appendixes
  A. Facility Profile ....................................................................................................      14

  B. Strategic Analytics for Improvement and Learning ............................................                              15

  C. Acting VISN Director Comments .......................................................................                      18

  D. Interim Facility Director Comments ...................................................................                     19

  E. OIG Contact and Staff Acknowledgments .........................................................                            23

  F. Report Distribution .............................................................................................          24

  G. Endnotes ...........................................................................................................       25





VA OIG Office of Healthcare Inspections
                             CAP Review of the New Mexico VA Health Care System, Albuquerque, NM



                                Executive Summary

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care. We
conducted the review the week of June 2, 2014.

Review Results:          The review covered seven activities.                  We made no
recommendations in the following four activities:

 Medication Management

 Coordination of Care

 Community Living Center Resident Independence and Dignity

 Magnetic Resonance Imaging Safety

The facility’s reported accomplishments were improvements in blood transfusion
processes and the prevention of hospital-acquired infections.

Recommendations: We made recommendations in the following three activities:
Quality Management: Consistently initiate Focused Professional Practice Evaluations
for newly hired licensed independent practitioners. Perform continuing stay reviews on
at least 75 percent of patients in acute beds. Require that the blood/transfusion usage
review process includes the results of proficiency testing and the results of peer reviews
when transfusions did not meet criteria. Ensure actions taken when data analyses
indicated problems or opportunities for improvement are consistently followed to
resolution for outlier data, bar code scanning, and blood transfusions.

Environment of Care: Ensure nurse call system alarms are functional.

Acute Ischemic Stroke Care: Complete and document National Institutes of Health
stroke scales for each stroke patient. Post stroke guidelines in the emergency
department, on the critical care units, and on the medical and surgical units. Provide
printed stroke education to patients upon discharge. Ensure staff who are involved in
assessing and treating stroke patients receive the training required by the facility.

Comments
The Acting Veterans Integrated Service Network Director and Interim Facility Director
agreed with the Combined Assessment Program review findings and recommendations




VA OIG Office of Healthcare Inspections                                                       i
                             CAP Review of the New Mexico VA Health Care System, Albuquerque, NM


and provided acceptable improvement plans. (See Appendixes C and D, pages 18–22,
for the full text of the Directors’ comments.) We will follow up on the planned actions
until they are completed.




                                                         JOHN D. DAIGH, JR., M.D.

                                                        Assistant Inspector General for

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                       ii
                             CAP Review of the New Mexico VA Health Care System, Albuquerque, NM



                              Objectives and Scope

Objective
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objective of the CAP review is to
conduct recurring evaluations of selected health care facility operations, focusing on
patient care quality and the EOC.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

      QM

      EOC

      Medication Management

      Coordination of Care

      Acute Ischemic Stroke Care

      CLC Resident Independence and Dignity

      MRI Safety

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012, FY 2013, and FY 2014 through
June 2, 2014, and was done in accordance with OIG standard operating procedures for
CAP reviews. We also asked the facility to provide the status on the recommendations
we made in our previous CAP report (Combined Assessment Program Review of the
New Mexico VA Health Care System, Albuquerque, New Mexico, Report
No. 12-00881-203, June 19, 2012).




VA OIG Office of Healthcare Inspections                                                       1
                             CAP Review of the New Mexico VA Health Care System, Albuquerque, NM


We surveyed employees regarding patient safety and quality of care at the facility. An
electronic survey was made available to all facility employees, and 474 responded. We
shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

Improving Provider Transfusion Practice
The facility’s surgical service team improved provider transfusion practice by
implementing a revised transfusion audit tool and process with provider-specific
feedback and initiating review of aggregated quarterly data by surgical sub-specialty.
The 3rd quarter 2013 review indicated a 96 percent compliance with transfusion orders
having appropriate indication documented, a 71 percent compliance with transfusions
having outcome documented, and a 69 percent compliance with transfusions having an
appropriate note. The transfusion utilization rate dropped 11 percent for orthopedic
procedures and 13 percent for general surgery procedures. The auditing tool and
process will be used in other surgical sub-specialties and services using blood products.

Hospital-Acquired Infections
The facility improved housekeeping employee training in order to prevent
hospital-acquired infections caused by Clostridium difficile, a bowel bacteria most
frequently identified in patients with antibiotic hospital-acquired diarrhea. Step-by-step
training that included housekeeping tasks and responsibilities, classroom training,
videos, on-the-job training, and hands on demonstrations was completed by
4th quarter 2013. As a result of improved housekeeping, relative light units, which
measure the energy source present in any bacteria, have been significantly reduced
since January 2013 from 14,500 to 500.




VA OIG Office of Healthcare Inspections                                                       2
                                      CAP Review of the New Mexico VA Health Care System, Albuquerque, NM



                          Results and Recommendations

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.a

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                       Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
       The protected peer review process met
       selected requirements:
        The PRC was chaired by the Chief of Staff
          and included membership by applicable
          service chiefs.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
 X     Focused Professional Practice Evaluations for    Thirty-two profiles reviewed:
       newly hired licensed independent practitioners    Four Focused Professional Practice
       were initiated and completed, and results            Evaluations (13 percent) were not initiated.
       were reported to the MEC.
 NA    Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                    3
                                      CAP Review of the New Mexico VA Health Care System, Albuquerque, NM


NM             Areas Reviewed (continued)                                    Findings
       Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
 X     Staff performed continuing stay reviews on at      Twelve months of continuing stay data reviewed:
       least 75 percent of patients in acute beds.         For all months, less than 75 percent of acute
                                                            inpatients were reviewed.
       The process to review resuscitation events
       met selected requirements:
        An interdisciplinary committee was
          responsible for reviewing episodes of care
          where resuscitation was attempted.
        Resuscitation event reviews included
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
       The surgical review process met selected
       requirements:
        An interdisciplinary committee with
          appropriate leadership and clinical
          membership met monthly to review surgical
          processes and outcomes.
        Surgical deaths with identified problems or
          opportunities for improvement were
          reviewed.
        Additional data elements were routinely
          reviewed.
       Critical incidents reporting processes were
       appropriate.
       The process to review the quality of entries in
       the EHR met selected requirements:
        A committee was responsible to review
          EHR quality.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
       The policy for scanning non-VA care
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                 4
                                      CAP Review of the New Mexico VA Health Care System, Albuquerque, NM


NM              Areas Reviewed (continued)                                   Findings
 X     The process to review blood/transfusions          Four quarters of Blood Usage Review
       usage met selected requirements:                  Committee meeting minutes reviewed:
        A committee with appropriate clinical            The review process did not include the results
          membership met at least quarterly to review      of proficiency testing and the results of peer
          blood/transfusions usage.                        reviews when transfusions did not meet
        Additional data elements were routinely           criteria.
          reviewed.
 X     Overall, if significant issues were identified,    Corrective actions were not consistently
       actions were taken and evaluated for                followed to resolution for outlier data, bar
       effectiveness.                                      code scanning issues, or blood transfusion.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that Focused Professional
Practice Evaluations for newly hired licensed independent practitioners are consistently initiated.

2. We recommended that processes be strengthened to ensure that continuing stay reviews
are performed on at least 75 percent of patients in acute beds.

3. We recommended that processes be strengthened to ensure that the blood/transfusions
usage review process includes the results of proficiency testing and the results of peer reviews
when transfusions did not meet criteria.

4. We recommended that processes be strengthened to ensure that actions taken when data
analyses indicated problems or opportunities for improvement are consistently followed to
resolution in outlier data, bar codes that were unable to scan, and blood transfusions.




VA OIG Office of Healthcare Inspections                                                                   5
                                      CAP Review of the New Mexico VA Health Care System, Albuquerque, NM


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether the facility
met selected requirements in SDS, the PACU, and the eye clinic.b

We inspected the medical, surgical, and locked inpatient MH units; the medical intensive care
unit; the PACU; the CLC; the emergency department; and the primary care, renal, and eye
clinics. Additionally, we reviewed relevant documents, conversed with key employees and
managers, and reviewed 15 employee training records (10 PACU and 5 eye clinic). The table
below shows the areas reviewed for this topic. The area marked as NM did not meet applicable
requirements and needed improvement. Any items that did not apply to this facility are marked
NA.

 NM           Areas Reviewed for General EOC                                 Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.
  X    Environmental safety requirements were met.        Nurse call system alarms were not audible
                                                           and/or visible in four of the eight patient care
                                                           areas.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
          Areas Reviewed for SDS and the PACU
 NA    Designated SDS and PACU employees
 for   received bloodborne pathogens training
SDS    during the past 12 months.
 NA    Designated SDS employees received medical
       laser safety training with the frequency
       required by local policy.
 NA    Fire safety requirements in SDS and on the
 for   PACU were met.
SDS




VA OIG Office of Healthcare Inspections                                                                       6
                                      CAP Review of the New Mexico VA Health Care System, Albuquerque, NM


 NM      Areas Reviewed for SDS and the PACU                                Findings
                       (continued)
 NA    Environmental safety requirements in SDS
 for   and on the PACU were met.
SDS
 NA    SDS medical laser safety requirements were
       met.
 NA    Infection prevention requirements in SDS and
 for   on the PACU were met.
SDS
 NA    Medication safety and security requirements
 for   in SDS and on the PACU were met.
SDS
 NA    Auditory privacy requirements in SDS and on
 for   the PACU were met.
SDS
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Eye Clinic
       Designated eye clinic employees received
       laser safety training with the frequency
       required by local policy.
       Environmental safety requirements in the eye
       clinic were met.
       Infection prevention requirements in the eye
       clinic were met.
       Medication safety and security requirements
       in the eye clinic were met.
       Laser safety requirements in the eye clinic
       were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendation

5. We recommended that processes be strengthened to ensure that nurse call system alarms
are functional and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                7
                                      CAP Review of the New Mexico VA Health Care System, Albuquerque, NM


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.c

We reviewed relevant documents and conversed                  with key managers and employees.
Additionally, we reviewed the EHRs of 31 randomly            selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the       areas reviewed for this topic. Any items
that did not apply to this facility are marked NA. The       facility generally met requirements. We
made no recommendations.

NM                      Areas Reviewed                                     Findings
       Clinicians conducted inpatient learning
       assessments within 24 hours of admission or
       earlier if required by local policy.
       If learning barriers were identified as part of
       the learning assessment, medication
       counseling was adjusted to accommodate the
       barrier(s).
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                8
                                      CAP Review of the New Mexico VA Health Care System, Albuquerque, NM


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.d

We reviewed relevant documents and conversed with key employees. Additionally, we
reviewed the EHRs of 31 randomly selected patients with specific diagnoses who were
discharged from July 1, 2012, through June 30, 2013. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

NM                     Areas Reviewed                                       Findings
      Patients’ post-discharge needs were identified,
      and discharge planning addressed the
      identified needs.
      Clinicians provided discharge instructions to
      patients and/or caregivers and validated their
      understanding.
      Patients received the ordered aftercare
      services and/or items within the
      ordered/expected timeframe.
      Patients’ and/or caregivers’ knowledge and
      learning abilities were assessed during the
      inpatient stay.
      The facility complied with any additional
      elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                9
                                       CAP Review of the New Mexico VA Health Care System, Albuquerque, NM


Acute Ischemic Stroke Care
The purpose of this review was to determine whether the facility complied with selected
requirements for the assessment and treatment of patients who had an acute ischemic stroke. e

We reviewed relevant documents, the EHRs of 42 randomly selected patients who experienced
stroke symptoms, and 20 employee training records (10 emergency department, 5 medical
intensive care unit, and 5 medical and surgical unit), and we conversed with key employees.
We also conducted onsite inspections of the emergency department, two critical care units, and
the medical and surgical units. The table below shows the areas reviewed for this topic. The
areas marked as NM did not meet applicable requirements and needed improvement. Any
items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                        Findings
       The facility’s stroke policy/plan/guideline
       addressed all required items.
 X     Clinicians completed the National Institutes of     Twelve of the 42 EHRs (29 percent) did not
       Health stroke scale for each patient within the      contain documented evidence of completed
       expected timeframe.                                  stroke scales.
       Clinicians provided medication (tissue
       plasminogen activator) timely to halt the
       stroke and included all required steps, and
       tissue plasminogen activator was in stock or
       available within 15 minutes.
 X     Stroke guidelines were posted in all areas          Stroke guidelines were not posted in any of
       where patients may present with stroke               the areas.
       symptoms.
       Clinicians screened patients for difficulty
       swallowing prior to oral intake of food or
       medicine.
 X     Clinicians provided printed stroke education to     Thirty-two of the applicable 35 EHRs
       patients upon discharge.                             (91 percent) did not contain documentation
                                                            that stroke education was provided to the
                                                            patient/caregiver.
 X     The facility provided training to staff involved    Staff in the medical and surgical units were
       in assessing and treating stroke patients.           not provided the facility’s required training on
                                                            assessing and treating stroke patients.
       The facility collected and reported required
       data related to stroke care.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

6. We recommended that processes be strengthened to ensure that clinicians complete and
document National Institutes of Health stroke scales for each stroke patient and that compliance
be monitored.




VA OIG Office of Healthcare Inspections                                                                    10
                                      CAP Review of the New Mexico VA Health Care System, Albuquerque, NM


7. We recommended that stroke guidelines be posted in the emergency department, on the
critical care units, and on the medical and surgical units.

8. We recommended that processes be strengthened to ensure that clinicians provide printed
stroke education to patients upon discharge and that compliance be monitored.

9. We recommended that processes be strengthened to ensure that staff who are involved in
assessing and treating stroke patients receive the training required by the facility and that
compliance be monitored.




VA OIG Office of Healthcare Inspections                                                               11
                                      CAP Review of the New Mexico VA Health Care System, Albuquerque, NM


CLC Resident Independence and Dignity
The purpose of this review was to determine whether the facility provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.f

We reviewed three EHRs of residents receiving restorative nursing services. We also observed
2 meal periods, reviewed 10 employee training/competency records and other relevant
documents, and conversed with key employees. The table below shows the areas reviewed for
this topic. Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations.

NM                      Areas Reviewed                                     Findings
       The facility offered restorative nursing
       services.
       Facility staff completed and documented
       restorative nursing services, including active
       and passive range of motion, bed mobility,
       transfer, and walking activities, according to
       clinician orders and residents’ care plans.
       Resident progress towards restorative nursing
       goals was documented, and interventions
       were modified as needed to promote the
       resident’s accomplishment of goals.
       When restorative nursing services were care
       planned but were not provided or were
       discontinued, reasons were documented in
       the EHR.
       If residents were discharged from physical
       therapy, occupational therapy, or
       kinesiotherapy, there was hand-off
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
       Training and competency assessment were
       completed for staff who performed restorative
       nursing services.
       The facility complied with any additional
       elements required by VHA or local policy.
            Areas Reviewed for Assistive Eating
                 Devices and Dining Service
 NA    Care planned/ordered assistive eating devices
       were provided to residents at meal times.
       Required activities were performed during
       resident meal periods.
       The facility complied with any additional
       elements required by VHA or local policy.



VA OIG Office of Healthcare Inspections                                                               12
                                      CAP Review of the New Mexico VA Health Care System, Albuquerque, NM


MRI Safety
The purpose of this review was to determine whether the facility ensured safety in MRI in
accordance with VHA policy requirements related to: (1) staff safety training, (2) patient
screening, and (3) risk assessment of the MRI environment.g

We reviewed relevant documents and the training records of 37 employees (30 randomly
selected Level 1 ancillary staff and 7 designated Level 2 MRI personnel), and we conversed
with key managers and employees. We also reviewed the EHRs of 35 randomly selected
patients who had an MRI January 1–December 31, 2013. Additionally, we conducted physical
inspections of two MRI areas. The table below shows the areas reviewed for this topic. Any
items that did not apply to this facility are marked NA. The facility generally met requirements.
We made no recommendations.

NM                     Areas Reviewed                                      Findings
       The facility completed an MRI risk
       assessment, there were documented
       procedures for handling emergencies in MRI,
       and emergency drills were conducted in the
       MRI area.
       Two patient safety screenings were conducted
       prior to MRI, and the secondary patient safety
       screening form was signed by the patient,
       family member, or caregiver and reviewed and
       signed by a Level 2 MRI personnel.
       Any MRI contraindications were noted on the
       secondary patient safety screening form, and
       a Level 2 MRI personnel and/or radiologist
       addressed the contraindications and
       documented resolution prior to MRI.
       Level 1 ancillary staff and Level 2 MRI
       personnel were designated and received
       level-specific annual MRI safety training.
       Signage and barriers were in place to prevent
       unauthorized or accidental access to Zones III
       and IV.
       MRI technologists maintained visual contact
       with patients in the magnet room and two-way
       communication with patients inside the
       magnet, and the two-way communication
       device was regularly tested.
       Patients were offered MRI-safe hearing
       protection for use during the scan.
       The facility had only MRI-safe or compatible
       equipment in Zones III and IV, or the
       equipment was appropriately protected from
       the magnet.
       The facility complied with any additional
       elements required by VHA or local policy.



VA OIG Office of Healthcare Inspections                                                               13
                                   CAP Review of the New Mexico VA Health Care System, Albuquerque, NM
                                                                                           Appendix A


            Facility Profile (Albuquerque/501) FY 2014 through
                                  June 20141
Type of Organization                                                       Tertiary
Complexity Level                                                           1a-High complexity
Affiliated/Non-Affiliated                                                  Affiliated
Total Medical Care Budget in Millions                                      $413.8
Number of:
    Unique Patients                                                       56,428
    Outpatient Visits                                                     439,758
    Unique Employees2                                                     1,960
Type and Number of Operating Beds:
    Hospital                                                              167
    CLC                                                                   36
    MH                                                                    90
Average Daily Census (as of May 2014):
    Hospital                                                              118
    CLC                                                                   23
    MH                                                                    73
Number of Community Based Outpatient Clinics                               12
Location(s)/Station Number(s)                                              Las Vegas/501G2
                                                                           Artesia/501GA
                                                                           Farmington/501GB
                                                                           Silver City/501GC
                                                                           Gallup/501GD
                                                                           Espanola/501GE
                                                                           Truth or Consequences/501GH
                                                                           Alamogordo/501GI
                                                                           Durango/501GJ
                                                                           Santa Fe/501GK
                                                                           Rio Rancho/501GM
                                                                           Raton/501HB
VISN Number                                                                18




1
    All data is for FY 2014 through June 2014 except where noted.

2
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period.



VA OIG Office of Healthcare Inspections                                                                 14
                                                             CAP Review of the New Mexico VA Health Care System, Albuquerque, NM
                                                                                                                     Appendix B

                                   Strategic Analytics for Improvement and Learning (SAIL)3




3
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                      15
                                                    CAP Review of the New Mexico VA Health Care System, Albuquerque, NM



                                          Scatter Chart





VA OIG Office of Healthcare Inspections                                                                             16
                                                                                             CAP Review of the New Mexico VA Health Care System, Albuquerque, NM


                                                                         Metric Definitions
 Measure                       Definition                                                                          Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)   A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                             A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                          A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                         A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)      A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                       A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                   A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                              A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                      A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)   A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)            A higher value is better than a lower value
 PSI                           Patient safety indicator                                                            A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                    A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                      A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction             A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                               A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction           A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure              A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                             A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                 A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                      A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)          A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                          17
                              CAP Review of the New Mexico VA Health Care System, Albuquerque, NM
                                                                                      Appendix C
                        Acting VISN Director Comments



               Department of
               Veterans Affairs                                   Memorandum


           Date:       July 8, 2014

          From:        Acting Director, VA Southwest Health Care Network (10N18)

       Subject:        CAP Review of the New Mexico VA Health Care System,
                       Albuquerque, NM

             To:       Director, Denver Office of Healthcare Inspections (54DV)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1.	 I concur with the attached facility responses and action plans detained
           in this draft report of the Combined Assessment Program Review of
           the New Mexico VA Health Care System, Albuquerque, NM.

       2.	 If you have additional questions or concerns, please contact
           Robert Baum, VISN 18 Executive Officer to the Network Director, at
           (480) 397-2777.
                (original signed by:)
           Elizabeth Joyce Freeman
           Acting Network Director




VA OIG Office of Healthcare Inspections                                                       18
                              CAP Review of the New Mexico VA Health Care System, Albuquerque, NM
                                                                                      Appendix D
                      Interim Facility Director Comments



               Department of
               Veterans Affairs                                   Memorandum


           Date:       July 2, 2014

          From:	       Interim Director, New Mexico VA Health Care System
                       (501/00)

       Subject:	       CAP Review of the New Mexico VA Health Care System,
                       Albuquerque, NM

             To:       Director, VA Southwest Health Care Network (10N18)

       1.	 I have reviewed and concur with the findings and recommendations in
           the draft report of the Office of Inspector General Combined
           Assessment Program Review conducted the week of June 2, 2014.

       2.	 Corrective action plans have been established, with some being
           already implemented, and target completion dates have been set for
           the remaining items as detailed in the attached report.
              (original signed by:)
           James L. Robbins, MD

           Interim Director





VA OIG Office of Healthcare Inspections                                                       19
                             CAP Review of the New Mexico VA Health Care System, Albuquerque, NM


                               Comments to OIG’s Report

The following Interim Director’s comments are submitted in response to the
recommendations in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
Focused Professional Practice Evaluations for newly hired licensed independent
practitioners are consistently initiated.

Concur

Target date for completion: August 2014

Facility response: A revised process for ensuring FPPE completion for newly hired
licensed independent practitioners (LIP's) occurred in December 2013 with
implementation of the process since January 2014. A master spreadsheet was
developed to ensure and track compliance.

Recommendation 2. We recommended that processes be strengthened to ensure that
continuing stay reviews are performed on at least 75 percent of patients in acute beds.

Concur

Target date for completion: November 2014

Facility response: Process for ongoing continuing stay reviews was reviewed and to
ensure compliance of 75% of the reviews will be completed a staff plan is in place to
address vacancies.

Recommendation 3. We recommended that processes be strengthened to ensure the
blood/transfusions usage review process includes the results of proficiency testing and
the results of peer reviews when transfusions did not meet criteria.

Concur

Target date for completion: December 2014

Facility response: The process for proficiency testing was reviewed and changes were
made to improve the reporting process. Providers ordering transfusions will use the
NMVAHCS template that includes indication for the transfusion. One hundred percent
of blood transfusions orders will be reviewed for appropriateness (transfusion meets
criteria) by the blood bank, results will be reported to the Tissue & Transfusion
Committee. Orders for blood that have not used the template or where there is a
mismatch between the indication and the patient’s clinical status (e.g. indication is
hemoglobin <7 but patient’s lab result show hemoglobin of >7) will be referred to the


VA OIG Office of Healthcare Inspections                                                      20
                             CAP Review of the New Mexico VA Health Care System, Albuquerque, NM


ordering clinical service for further review. The results of the clinical service review will
be reported to the committee. Repetitive or unusually serious violations of transfusion
criteria not met will be referred to the Chief of Staff for consideration for peer review as
required by VHA Directive 2009-005 Transfusion Utilization Committee and Program
Aggregate data on peer reviews related to transfusions will be reported back to the
Tissue & Transfusion Committee for follow-up and action on system issues.

Recommendation 4. We recommended that processes be strengthened to ensure that
actions taken when data analyses indicated problems or opportunities for improvement
are consistently followed to resolution in outlier data, bar codes that were unable to
scan, and blood transfusions.

Concur

Target date for completion: October 2014

Facility response: Action plans for outlier data, unable to scan bar codes and blood
transfusion issues will be reported and tracked using a standardized format. The status
of identified issues (e.g. current data) will be reported on a monthly basis to the Quality
Board or the appropriate sub-committee until resolution.

Recommendation 5. We recommended that processes be strengthened to ensure that
nurse call system alarms are functional and that compliance be monitored.

Concur

Target date for completion: November 2014

Facility response: The current nurse call system functionality is assessed on a
continuous basis. Instances of call light failure will be reported daily during the
Director’s Morning Report, including actions taken to mitigate risk when a system is not
functioning. Actions may include deployment of a temporary call system that has been
purchased to serve as back-up to the primary system. The NMVAHCS has engaged
the contracting office to expedite replacement of the nurse call system.

Recommendation 6. We recommended that processes be strengthened to ensure that
clinicians complete and document National Institutes of Health stroke scales for each
stroke patient and that compliance be monitored.

Concur

Target date for completion: December 31, 2014

The NIH stroke scale (or the reason why the scale is not appropriate) is to be
documented by the Emergency Department nurse within 45 minutes for patients who
present within 120 minutes of their onset of symptoms or within 24 hours if the patient
presents >120 minutes after their onset of symptoms. If not completed by the ED nurse,
documentation of the stroke scale by the attending or resident neurologist will be


VA OIG Office of Healthcare Inspections                                                      21
                             CAP Review of the New Mexico VA Health Care System, Albuquerque, NM


considered acceptable. All stroke cases (100%) have been reviewed in 2014 by the
Stroke Coordinator (report attached). Quarterly compliance >90% with completing the
stroke scale will be achieved NLT December 2014.

Recommendation 7. We recommended that stroke guidelines be posted in the
emergency department, on the critical care units, and on the medical and surgical units.

Concur

Target date for completion: July 30, 2014

Facility response: Stroke Guidelines/Algorithm are currently posted in the Emergency
Department and MICU. Additional copies will be printed, laminated and posted on all
critical care and medical/surgical units by July 30, 2014. To facilitate the posting of
algorithm revisions, a table will be created listing the locations and the date posted.

Recommendation 8. We recommended that processes be strengthened to ensure that
clinicians provide printed stroke education to patients upon discharge and that
compliance be monitored.

Concur

Target date for completion: Completed

Compliance with providing the required patient education improved with the hiring of a
stroke coordinator/educator. Stroke education compliance is monitored on 100% of
cases and is reported monthly at the facility stroke meeting. In 2014 100% compliance
was achieved in February and has been sustained for > 3 months.

Recommendation 9. We recommended that processes be strengthened to ensure that
staff who are involved in assessing and treating stroke patients receive the training
required by the facility and that compliance be monitored.

Concur

Target date for completion: December 31, 2014

Facility response: General stroke education will be added to all medical/surgical nurses
educational profiles in Talent Management System (TMS) no later than July 31st 2014.
Nursing will monitor completion rates by nursing unit and compliance of >90% will be
achieved by the end of the calendar year.




VA OIG Office of Healthcare Inspections                                                      22
                             CAP Review of the New Mexico VA Health Care System, Albuquerque, NM
                                                                                      Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Ann Ver Linden, RN, MBA, Team Leader
Contributors            Laura Dulcie, BSEE
                        Virginia Solana, RN, MA
                        Laura Snow, LCSW, MHCL
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Jeff Joppie, BS
                        Nathan McClafferty, MS
                        Clarissa Reynolds, CNHA, MBA
                        Patrick Smith, M. Stat
                        Yurong Tan, PhD
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                      23
                             CAP Review of the New Mexico VA Health Care System, Albuquerque, NM
                                                                                      Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Acting Director, VA Southwest Health Care Network (10N18)
Interim Director, New Mexico VA Health Care System (501/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Michael F. Bennet, Martin Heinrich, Mark Udall, Tom Udall
U.S. House of Representatives: Michelle Lujan Grisham, Ben R. Lujan, Steve Pearce,
 Scott Tipton


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                      24
                                 CAP Review of the New Mexico VA Health Care System, Albuquerque, NM
                                                                                         Appendix G

                                                Endnotes

a
  References used for this topic included:

  VHA Directive 2009-043, Quality Management System, September 11, 2009.

  VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.

  VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.

  VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.

  VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation

   Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
   Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
b
  References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1121.01, VHA Eye Care, March 10, 2011.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 “Adenovirus-Associated Epidemic Keratoconjunctivitis Outbreaks –Four States, 2008–2010,” Centers for Disease
   Control and Prevention Morbidity and Mortality Weekly Report, August 16, 2013.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the
   American National Standards Institute/Advancing Safety in Medical Technology, the Centers for Disease Control
   and Prevention, the International Association of Healthcare Central Service Materiel Management ,the National
   Fire Protection Association, the Health Insurance Portability and Accountability Act, Underwriters Laboratories.
c
  References used for this topic included:
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 Manufacturer’s instructions for Cipro® and Levaquin®.
	 Various requirements of The Joint Commission.
d
  References used for this topic included:
	 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements,
   July 29, 2009.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
e
  The references used for this topic were:
	 VHA Directive 2011-038, Treatment of Acute Ischemic Stroke, November 2, 2011.
	 Guidelines for the Early Management of Patients with Acute Ischemic Stroke (AHA/ASA Guidelines),
   January 31, 2013.
f
  References used for this topic included:
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
	 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
   Manual, Version 3.0, May 2013.
	 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
	 Various requirements of The Joint Commission.




VA OIG Office of Healthcare Inspections                                                                         25
                                    CAP Review of the New Mexico VA Health Care System, Albuquerque, NM



g
    References used for this topic included:
	 VHA Handbook 1105.05, Magnetic Resonance Imaging Safety, July 19, 2012.
	 Emanuel Kanal, MD, et al., “ACR Guidance Document on MR Safe Practices: 2013,” Journal of Magnetic
    Resonance Imaging, Vol. 37, No. 3, January 23, 2013, pp. 501–530.
	 The Joint Commission, “Preventing accidents and injuries in the MRI suite,” Sentinel Event Alert, Issue 38,
    February 14, 2008.
	 VA National Center for Patient Safety, “MR Hazard Summary,”
    http://www.patientsafety.va.gov/professionals/hazards/mr.asp.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.




VA OIG Office of Healthcare Inspections                                                                          26
